GR-50-98-025
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
 OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE CITY OF COLUMBUS POLICE DEPARTMENT 
COLUMBUS, OHIO
 
Award Numbers 95-CL-WX-0063, 95-CC-WX-0308 and 96-CL-WX-0067
 
Audit Report Number GR-50-98-025
 
September 24, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Columbus, Ohio, Police Department (CPD). The CPD received
a grant of $2,850,000 to hire or rehire 38 additional sworn police officers under the
Accelerated Hiring, Education, and Deployment (AHEAD) program and a supplemental award of
$1,350,000 under the Universal Hiring Program (UHP) to hire or rehire 18 additional sworn
police officers. In addition, it received two awards totalling $243,030 under the Making
Officer Redeployment Effective (MORE) program to redeploy 27.7 full time equivalent (FTEs)
police officers. This audit focused on the AHEAD and initial MORE grants, as no funds had
been requested or expended under the UHP or second MORE award.
In brief, our audit determined the CPD used grant funds in accordance with grant
requirements and to enhance the CPD's community policing efforts. The number of officers
performing community policing activities increased by the number of officers funded under
the grants.
#####